<html>
<title> - DOD CHEMICAL AND BIOLOGICAL DEFENSE PROGRAM: MANAGEMENT AND OVERSIGHT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 DOD CHEMICAL AND BIOLOGICAL DEFENSE PROGRAM: MANAGEMENT AND OVERSIGHT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2000

                               __________

                           Serial No. 106-209

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                              -----------

                   U.S. GOVERNMENT PRINTING OFFICE
71-624                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2000.....................................     1
Statement of:
    Chan, Kwai-Cheung, Director, Special Studies and Evaluation 
      Group, National Security and International Affairs 
      Division, U.S. General Accounting Office, accompanied by 
      Sushil K. Sharma, Assistant Director, and Jeffrey K. 
      Harris, Senior Evaluator...................................     6
    Johnson-Winegar, Anna, Deputy Assistant to the Secretary of 
      Defense for Chemical/Biological Defense, Department of 
      Defense....................................................    27
Letters, statements, etc., submitted for the record by:
    Chan, Kwai-Cheung, Director, Special Studies and Evaluation 
      Group, National Security and International Affairs 
      Division, U.S. General Accounting Office, prepared 
      statement of...............................................     9
    Johnson-Winegar, Anna, Deputy Assistant to the Secretary of 
      Defense for Chemical/Biological Defense, Department of 
      Defense:
        Information concerning HNSC/SASC sample..................    45
        Prepared statement of....................................    29
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho, prepared statement of..................     5
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
 DOD CHEMICAL AND BIOLOGICAL DEFENSE PROGRAM: MANAGEMENT AND OVERSIGHT

                              ----------                              


                        WEDNESDAY, MAY 24, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                    Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Blagojevich, and Tierney.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Robert 
Newman and Thomas Costa, professional staff member; Jason M. 
Chung, clerk; David Rapallo, minority counsel; and Earley 
Green, minority clerk.
    Mr. Shays. I'd like to call this hearing to order and 
welcome our witnesses and guests.
    The Persian Gulf war taught many important lessons about 
the effective use of our military strength, and about 
weaknesses in our chemical and biological--CB--defenses. Poor 
detection capability, bulky protective clothing, and limited 
supplies of medicines and decontaminants, among other problems, 
increased the vulnerability of U.S. forces to unconventional 
attack.
    Since then, Congress and the Department of Defense [DOD], 
have sought to improve the Chemical and Biological Defense 
Program by integrating previously disparate research, 
development and acquisition efforts into a coordinated, joint 
service approach. CBDP spending, $791 million this fiscal year, 
has more than doubled since 1996.
    In the most recent Annual Report to Congress, the Chemical 
and Biological Defense Program claims success in meeting 
statutory mandates to consolidate program management, expand 
jointness among the service branches, and improve force 
protection against immediate and future CB threats.
    But according to the General Accounting Office [GAO], the 
program may be mistaking motion for progress. CBDP has not yet 
fully complied with one important congressional mandate: to 
measure program performance in terms of real outcomes rather 
than mere activities. The Government Performance and Results 
Act [GPRA], requires adherence to an overall strategic plan, 
explicit program goals, and measurable performance benchmarks. 
Despite an August 1999 GAO recommendation to complete a Results 
Act-compliant performance plan, the March 2000 CBDP Annual 
Report contains little more than the relabeling of last year's 
goals and the promise of a more complete effort next year.
    The Results Act is more than an academic or civics 
exercise. According to DOD, the chemical and biological threat 
to U.S. forces is very real. Those charged to design, procure 
and deploy defensive capabilities to meet that threat should 
know, and be able to demonstrate, their efforts are working; 
yet GAO concludes, ``In the absence of explicit and measurable 
goals, it is difficult to assess the impact of the program on 
warfighters' ability to survive, fight and win in a chemical 
and biological environment.''
    Without those performance measures, the program risks 
losing sight of its real objectives as jointness gives way to 
service-specific demands and the competing priorities of a very 
complex management and oversight bureaucracy dilute program 
focus. By ignoring, delaying or claiming exemption from Results 
Act requirements, the program risks settling for marginal 
improvements to existing technologies when those on the 
battlefield need much more.
    This subcommittee spent the past year looking at one aspect 
of current chemical and biological defense strategy, the 
Anthrax Vaccine Immunization Program. Today we begin an 
examination of the broader force protection effort, 
encompassing detection, agent identification, warning, 
individual protection, collective protection, and 
decontamination. On June 21st we plan to look specifically at 
current inventory controls, training protocols, and service 
life of individual protective clothing and masks.
    We appreciate the cooperation of all our witnesses in this 
effort, and we look forward to their testimony.
    [The prepared statements of Hon. Christopher Shays and Hon. 
Helen Chenoweth-Hage follow:]

[GRAPHIC] [TIFF OMITTED] T1624.001

[GRAPHIC] [TIFF OMITTED] T1624.002

[GRAPHIC] [TIFF OMITTED] T1624.003

    Mr. Shays. We have two panels. The first panel is Kwai 
Chan, Director, Special Studies and Evaluation Group, National 
Security and International Affairs Division, U.S. General 
Accounting Office, accompanied by Dr. Sushil K. Sharma, 
Assistant Director, Special Studies and Evaluation Group, and 
Dr. Jeffrey K. Harris, Senior Evaluator at National Security 
and International Affairs Division.
    I would invite all of our witnesses on the first panel to 
come up, and we will swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that our witnesses have 
responded in the affirmative.
    We welcome your testimony and welcome you here.

 STATEMENT OF KWAI-CHEUNG CHAN, DIRECTOR, SPECIAL STUDIES AND 
 EVALUATION GROUP, NATIONAL SECURITY AND INTERNATIONAL AFFAIRS 
DIVISION, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY SUSHIL 
 K. SHARMA, ASSISTANT DIRECTOR, AND JEFFREY K. HARRIS, SENIOR 
                           EVALUATOR

    Mr. Chan. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to discuss our report on the 
Department of Defense application of the Results Act in its 
Chemical and Biological Defense Program.
    Before I discuss our findings, let me briefly describe the 
context.
    Subsequent to the Gulf War, concerns were raised about the 
adequacy of technologies used to detect and protect troops 
against chemical and biological weapons. The growth in 
appropriations for the program, from $388 million in fiscal 
year 1996 to $791 million in the current fiscal year, reflects 
a continuing and increasing Congressional interest in the 
protection of our servicemembers.
    In 1993 Congress enacted the Government Performance and 
Results Act. The legislation was designed to have agencies 
focus on the results of their programs rather than on program 
activities and resources, as they had traditionally done. 
Congress drafted this legislation in frustration over vague 
agency goals and inadequate program performance information. 
The absence of articulated strategic performance goals and 
associated performance measures was viewed as a serious 
impediment to policymaking, spending decisions, and oversight.
    The Results Act requires that agencies at all levels set 
multiyear strategic goals and annual performance goals, measure 
performance, and report on the degree to which those goals are 
met. Specifically, each activity is expected to, one, establish 
quantifiable, measurable outcome-oriented goals and related 
performance measures; two, develop strategies for achieving 
these goals; three, ensure that goals align within each agency; 
and finally, identify the resources that will be required to 
achieve those goals.
    I will now turn to the following four issues, which you 
asked us to address, and our findings and recommendations: 
First, whether Results Act principles can and should be applied 
to the program's R&D activities; second, whether current 
Chemical and Biological Defense Program planning and evaluation 
practices follow the Results Act framework; third, whether 
organizations executing the program's R&D activities have 
incorporated Results Act principles in their planning and 
evaluation practices; and, finally, I will quote DOD's response 
to our recommendation from August of last year, that DOD should 
develop a performance plan for the Chemical and Biological 
Defense Program.
    First, congressional reports and administrative guidance 
clearly indicate that programs such as the Chemical and 
Biological Defense Program should follow the Results Act's 
outcome-oriented principles. We found that research 
organizations, such as the Research Roundtable, the National 
Academy of Sciences, the National Academy of Engineering, and 
the Institute of Medicine have concluded that both applied and 
basic research programs could be evaluated meaningfully using 
the Results Act's principles.
    Second, we found that program managers have not 
incorporated key Results Act principles in the planning or in 
the execution of the program. The five program goals, as stated 
in its 1999 report, are either vague and unmeasurable, or fail 
to articulate specific desired impacts. For example, measuring 
the first goal, which is to deter chemical and biological 
weapon use by denying military advantage, because determining a 
deterrent effect is problematic, and attributing the specific 
rationale for the deterrent is unrealistic.
    Three of the five goals addressed the size, focus, and 
coordination of the program, not program outcomes. Together, 
these goals direct that the program be sufficiently large to 
address the needs resulting from two major theater wars; be 
sufficiently focused to address likely validated threats, and 
be sufficiently coordinated to capitalize on efficiencies and 
other benefits of joint requirement determination, research, 
development, and procurement.
    The fifth goal, to complete R&D, is measurable, but 
addresses program output rather than outcomes.
    Third, we found that only one of the three organizations 
executing the program's R&D activities has adopted Results Act 
planning and evaluation tools. The remaining R&D organizations 
cited either the utilization of equivalent planning tools, or 
the unique challenges of evaluating R&D activities, as reasons 
why they had not or could not adopt the Results Act processes.
    Fourth, DOD has yet to implement our recommendation that it 
develop a performance plan for the Chemical and Biological 
Defense Program. In its response to GAO, DOD stated that it 
``would develop a strategic plan more closely aligned with the 
tenets of the Results Act,'' and that it ``would publish that 
plan in the program's next Annual Report to Congress.'' 
Nevertheless, its March 2000 report to Congress does not 
contain a performance plan.
    DOD has instead defined seven new program goals and stated 
that ``specific technology and systems goals will be provided'' 
in its performance plan, under development.
    It is important to note that the steps taken and promised 
in the March 2000 report to the Congress still reflect only 
partial compliance with the first of the four outcome-oriented 
principles, by failing even to identify quantifiable, 
measurable outcome-oriented performance goals.
    DOD has not begun to address the other three principles of 
the Results Act. Consequently, in the absence of explicit and 
measurable performance goals, a strategy for achieving those 
goals, alignment of those goals within each agency, as well as 
the resources required, the Congress and the DOD cannot assess 
the impact of the Federal funding for this program on 
warfighters' ability to survive, fight, and win in a chemical 
or biological contaminated environment.
    Mr. Chairman, this concludes my statement. We will be happy 
to answer any questions.
    [The prepared statement of Mr. Chan follows:]

    [GRAPHIC] [TIFF OMITTED] T1624.004
    
    [GRAPHIC] [TIFF OMITTED] T1624.005
    
    [GRAPHIC] [TIFF OMITTED] T1624.006
    
    [GRAPHIC] [TIFF OMITTED] T1624.007
    
    [GRAPHIC] [TIFF OMITTED] T1624.008
    
    [GRAPHIC] [TIFF OMITTED] T1624.009
    
    [GRAPHIC] [TIFF OMITTED] T1624.010
    
    [GRAPHIC] [TIFF OMITTED] T1624.011
    
    [GRAPHIC] [TIFF OMITTED] T1624.012
    
    [GRAPHIC] [TIFF OMITTED] T1624.013
    
    [GRAPHIC] [TIFF OMITTED] T1624.014
    
    [GRAPHIC] [TIFF OMITTED] T1624.015
    
    [GRAPHIC] [TIFF OMITTED] T1624.016
    
    Mr. Shays. When I was first elected to Congress, I was 
exposed to a report about our protective gear, and it was 
alarming. What was alarming was that test studies would 
indicate that the protective gear wasn't doing the job it was 
designed to do. At the time, it was a classified document, and 
it was very frustrating for me to be aware of this document.
    I went to other Members to share it with them, as I could, 
which is to say that I am going to see that a good deal of this 
committee's energy and time is spent understanding the quality 
of our protective gear, and hold the DOD and others accountable 
for what is required.
    But what I would like to ask you first, Mr. Chan, is this. 
I would like to know what is the general attitude of DOD when 
you get into these issues. Do they take GPRA seriously? Do they 
feel that they are doing important work? Do they take 
seriously, in your judgment, the value of the program?
    Mr. Chan. Well, our initial experience was when we did our 
work, the person in charge of the program was quite vehement in 
the sense that he didn't think it was necessary for them to 
follow the Results Act.
    Mr. Shays. So to start with, they didn't take the view that 
they came under GPRA, under the Results Act, or that they felt 
they weren't compatible, that the Results Act wouldn't be 
helpful to them--besides being a legal requirement, that it 
wouldn't be helpful to them?
    Mr. Chan. First, the belief was that the QDR itself, the 
Quadriennial Report Review, would answer the questions on what 
this is all about, but second, I think there was some concern 
on how you apply GPRA to the research and development side.
    Subsequent to that, I think the next leadership felt that 
it is important to apply it, and I think that's why you see 
some progress in the March 2000 report.
    To me, there is sort of a conflict between what seem to be 
good management tools versus the utilization of those tools. 
It's sort of good management principles to have these tools so 
that one can tell what is the mission of this program, and how 
do you go about implementing it, how do you measure it, so that 
at the end we understand what the outcome is, and the report 
will reflect outcome of the spending of the dollars on.
    Mr. Shays. Describe to me in general terms what you think 
the role of CBDP is.
    Mr. Chan. Well, I think in 1993 and 1994 Congress was 
concerned about lack of capability of our soldiers to fight in 
a contaminated environment, and had in fact decided to focus on 
giving sufficient funding in this program to actually manage 
all RD&A--that is, research, development and acquisition--
systems by which it can help in terms of its mission. So it has 
a very far-reaching mandate.
    Mr. Shays. I know that you stated this in your report, but 
I would like to ask you specifically--well, you answered that, 
so I don't need to go over it.
    What are the difficulties of translating the annual goals 
into a performance plan?
    Mr. Chan. Mr. Chairman, the issue that is yet unaddressed 
to our satisfaction in the presentation of program goals in the 
annual report is that it can't be determined from the 
information available, whether or not the program goals are 
threat-driven, and if they're measurable. We think that we need 
an entire packet of information, beginning with strategic 
goals, annual performance goals, performance measures for those 
annual goals, and a plan to address any deficiencies that may 
be identified--to put a package together to identify what is or 
is not adequate.
    The concept of the Results Act, with its layout of the 
steps that the Congress has articulated, I think is quite easy 
to understand and conceptualize, but the articulation of 
measurable goals is the hurdle that has to be overcome first. 
And right now, it cannot be determined if the goals presented 
in the plan are simply asking for incremental improvements in 
existing capabilities, or is there an ideal capability that the 
users require to avoid the chemical and biological threats 
where they need to have a goal of a capability versus an 
incremental improvement over existing equipment.
    Mr. Shays. But the bottom line is that you are not able to 
determine whether or not they are meeting goals and certain 
strategies because you are not sure, in every instance, what 
their goals and strategies are? Is that correct?
    Mr. Chan. Correct.
    Mr. Shays. OK.
    Before welcoming our two members, let me just get two 
housekeeping measures out of the way.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place any opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    Let me just say before recognizing both Mr. Blagojevich and 
Mr. Tierney, that we view this first hearing as kind of 
``putting the ball in play.'' We're not going to get in any 
great depth today, but the purpose is just to begin this 
process. We don't anticipate that this is going to be a 
particularly long hearing, but, Mr. Chan, when you're done, I 
hope that you or your staff can stay to hear what is said and 
to make some comment on it as well.
    Mr. Blagojevich, welcome.
    Mr. Blagojevich. Thank you, Mr. Chairman. I just intend to 
listen for a little while. I have no questions at this point, 
but perhaps later.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Let me just ask the three of you, is there any 
question that we should be asking you before sit down? And if 
there is, you can tell me what it is and I'll ask it again, so 
that you will feel like I've asked you.
    Dr. Sharma, I've never known you to be here and not say 
something. [Laughter.]
    Mr. Sharma. I was going to pass, but now I have to speak. 
[Laughter.]
    I think I have a comment rather than a question, in 
anticipation that you would ask me to answer, so let me sort of 
describe to you what our expectations are in terms of the 
Results Act.
    As we understand, in the CB defense area, threat is the 
guiding force, that is validated threats. Based on validated 
threats, the users--which are the services and various 
commands--may develop some requirements to deal with those 
threats, and the funding that you are providing is to make sure 
that we have enough capabilities so that our soldiers could 
survive in a contaminated environment and accomplish the 
mission.
    In order for us to evaluate what our money is buying, one 
needs to show that the technologies that are coming out, or the 
various equipments that we are supplying to our fighters--what 
effect, if any, they are having on the threat. And when you 
look at the existing plan, it appears that the focus is on 
commodity areas, on technologies, on improvements over existing 
technologies. Although they have pieces in place that can 
answer the question for you, it hasn't really been put together 
by the Department at this point so that you could evaluate the 
outcome of the funding--that is, what is our money buying? We 
have had very detailed discussions with the program level 
people, who agreed with us that it should be done this way. We 
have let the Department know that we will be available to them 
to assist them at various points in time when they feel they 
have something to share with us.
    It is a new thing for them to do, and we will be very happy 
to assist them. However, at this point they have a long way to 
go.
    Mr. Tierney. That raises the question--I mean, we've asked 
this of all Departments, of all units within Departments, and 
so on, to do the Results Act, correct? I mean, throughout 
Government, it's Government-wide?
    Mr. Sharma. That is correct.
    Mr. Tierney. Is it GAO's responsibility to assist in that 
effort, or is it something that you all have just taken on as 
something you think you can do?
    Mr. Sharma. I don't think it is our responsibility. We 
have, in this particular case, offered assistance to them.
    Mr. Tierney. OK.
    Mr. Sharma. It is the agency's responsibility to develop 
the plan and evaluate it itself, and show it to the Congress, 
the results of their efforts in accomplishing the mission.
    Mr. Shays. Mr. Chan, maybe I should ask you this, in that 
I'm prepared to move on to the next panel.
    You're not saying that they are not meeting their goals, 
you're saying that in some cases we don't know what their goals 
are. It may be that we're doing really great, but if we are, 
it's more by accident than by planning--those are my words. In 
other words, you can't make an assessment of where we are 
because you don't have the measurement tools in place without 
them following----
    Mr. Chan. Well, I can make an assessment. I think they 
haven't done that, unfortunately.
    Mr. Shays. They haven't what?
    Mr. Chan. They have not done that, because I think what we 
have right now is an assessment whereby we are pursuing based 
on threat, and what technology we have, and we're putting a lot 
of eggs in different baskets, and hopefully something will come 
out of there at the end. But I don't think it makes a good 
strategy in terms of----
    Mr. Shays. Well, that's a different issue. I'm not trying 
to get them off the hook; I'm just trying to assess--you're not 
claiming that we are unprepared and that we are not doing a 
good job; the claim is that without these measuring tools, we 
don't know? And it seems to me that your claim is also that 
without specific focus on the Results Act, we clearly aren't 
maximizing the resources that we have to get there as quickly 
as we can, correct?
    Mr. Chan. Yes.
    Mr. Shays. Dr. Harris, did you have any comments you wanted 
to make?
    Mr. Harris. I just wanted to add what Dr. Chan and Dr. 
Sharma said, a couple points. One is that the way the program 
is described right now, it is very easy to say that we are 
making progress in achieving our goals because we are producing 
a better piece of equipment tomorrow than we had yesterday, and 
we can say that we can buy more of that with the moneys 
available from Congress than we had yesterday, and say that 
this is progress.
    But the plan that the Results Act requires should identify 
is, what are the pieces of equipment that are needed? What are 
the descriptions of the ideal equipment, the ideal capabilities 
that warfighters need? And we don't know exactly where we need 
to get to, so we don't know exactly how far away from that 
ideal we are today.
    Another element that should be this, in the spirit of the 
Results Act, is that we have goals identified in the report 
that are commodity area-specific, to detect, to protect, to 
decontaminate. There is no system in place to relate the 
relative benefits of competing goals. We don't know, without a 
Results Act implementation, if we might better spend our money 
for procurement or research and development--or, within 
research and development, what area is in the most need of 
additional assistance.
    So these are things we think will be there when the full 
implementation of the Results Act is completed.
    Mr. Shays. Yes, Mr. Chan?
    Mr. Chan. I would like to say that the Results Act itself 
is a management tool by which the Government sort of 
``mandates'' the agencies to determine how they are spending 
the money, and how well they are spending the money.
    In this case here, as we stated, from 1996 to the year 
2000, the budget itself had doubled over that period of time. 
And without knowing what we're getting out of this money or 
this investment, then there's no way to account for--have we, 
in fact--where are we in terms of achieving the goals or 
providing that the mission of protecting our soldiers in the 
contaminated CBW environment? That's really the final outcome 
that you want to see.
    So as a result, without doing that, there's a lack of 
accountability.
    Mr. Shays. Why don't you go ahead?
    Mr. Halloran. In your testimony you said that you found 
that only one of the three organizations was executing the 
program's R&D activities as a result of Results Act planning. 
May I ask you to name names there, what the other two are?
    Mr. Harris. OK. We identified three key Department of 
Defense organizations that are executing research and 
development on behalf of the Chemical and Biological Defense 
Program. Those three organizations are the Soldier Biological 
Systems Command, which is an element of the Army Materiel 
Command, Department of the Army; the second is the Defense 
Advanced Research Projects Agency [DARPA]; and the third is the 
Joint Project Office for Biological Defense.
    The Soldier Biological Systems Command is the organization 
that has been applying the Results Act in detailed steps for a 
number of years, identifying strategic goals, annual goals, 
measures, assessing their performance, and writing reports 
feeding back on how well they're doing. It is a template that 
is--it's the best template we found for a research and 
development organization in this area for executing Results Act 
principles.
    In DARPA, they made the argument that what they do is so 
far-reaching and so long-term that an annual assessment is 
impractical, and the DOD Management Council agreed with that.
    The Joint Program Office is an office that conducts system-
specific development activities, often in the form of Advanced 
Concept Technology Demonstrations. And they, again, thought 
that what they were doing in terms of developing new equipment 
and making equipment better, that would be an inappropriate 
application of the Results Act.
    Mr. Halloran. Do you agree with that?
    Mr. Harris. No. We think it can be done, and it's simply a 
change in philosophy and attitude that has to be accepted by 
those who are executing the program, that they have to identify 
where they're going before they can determine how well they are 
achieving those goals.
    Mr. Shays. Is that an option, that they are allowed to 
ignore the Results Act?
    Mr. Harris. The one example that we have, where the 
organization argued that it was inappropriate and was exempted 
internally within DOD, is DARPA, and they argued that they are 
such a unique organization that it wouldn't apply--even though 
before that exemption was allowed, they had developed internal 
measures that they were going to apply in terms of peer review, 
in terms of progress toward meeting milestones, that they 
thought might be applicable and in accordance with Results Act 
requirements. But in the end, they turned out to be granted an 
exemption.
    Mr. Shays. I would think, frankly, that DARPA would need it 
more than others. What's the budget of DARPA?
    Mr. Harris. I don't believe I have those figures. It's a 
considerable percent of the entire DOD R&D budget.
    Mr. Sharma. If I may add to this, Mr. Chairman, it is our 
understanding that there are no exemptions. At the agency 
level, at the top level, they have to have a plan; and then 
every entity within that organization has to follow and to be 
able to account for the money that they are receiving, to be 
very precise. However, in this case, DOD has given an exemption 
to DARPA.
    Mr. Shays. Thank you very much, unless there is anything 
else any of you want to add. Any other comments?
    [No response.]
    Mr. Shays. OK, thank you.
    I would like to call our second panel, Dr. Anna Johnson-
Winegar, Deputy Assistant to the Secretary of Defense for 
Chemical/Biological Defense, Department of Defense.
    Dr. Winegar, we welcome anyone else; it's not like you have 
lawyers next to you, it's not in any way a disadvantage.
    I just want to say again, if you think there is someone who 
might answer a question, I would love to swear them in. They 
can remain in the back, but even if they don't, it would help 
us out.
    Ms. Johnson-Winegar. Not today.
    Mr. Shays. OK. If you would raise your right hand, please?
    [Witness sworn.]
    Mr. Shays. Thank you. I welcome you here and am happy to 
have you make any statement you want.

  STATEMENT OF ANNA JOHNSON-WINEGAR, DEPUTY ASSISTANT TO THE 
     SECRETARY OF DEFENSE FOR CHEMICAL/BIOLOGICAL DEFENSE, 
                     DEPARTMENT OF DEFENSE

    Ms. Johnson-Winegar. Thank you, Mr. Chairman and other 
members of the subcommittee for this opportunity to speak to 
you today.
    Just a brief bit of history so that can put into context my 
relationship to the Chemical and Biological Defense Program. I 
am a career Government servant, having worked for the 
Department of Defense for over 30 years, and just moved into my 
position in October 1999.
    I would like to talk just for a minute about what I think 
is an improved management structure in our Chemical and 
Biological Defense Program in response to guidance from the 
Congress and from within the Department.
    As has been pointed out, Public Law 103-160 mandated that 
the Secretary of Defense identify a single office that would be 
responsible for chem/bio programs, and that is indeed my 
office. I would also like to acknowledge, as was pointed out 
before, that there has been considerable growth in the funding 
for the program, and we think that has been very successful in 
helping us to achieve some of our goals.
    Before I go any further I would like to clarify what I 
think is a misperception on the part of this committee, and 
perhaps others, in that the DARPA program is not--I repeat, 
not--part of the Chemical and Biological Defense Program, as 
defined by the law, as covered in our annual report, and as 
covered in the budget figures that you have been quoted.
    The DARPA expenditure for fiscal year 2000 is indeed $145 
million, and you can compare that to our overall expenditure in 
the chem/bio core program, which is approximately $791 million.
    As was pointed out by the GAO, we have indicated in our 
March 2000 report to Congress that we have taken the first 
steps toward implementing GPRA. I believe that it is important 
legislation and will help us to make a better assessment of our 
programs. We have identified a mission statement and have 
outlined goals which we hope will help us to achieve our 
program.
    I would like to reiterate also that our program is a 
threat-driven program and is responsive to requirements that 
are developed for us. It is very easy to talk about the 
ultimate piece of equipment that would help us be perfect; 
however, I think all of us are very well aware that science and 
technology does move in small increments, and I think I can 
honestly say that we have better equipment in the field today 
than we had at the time of the Gulf war. Some of those are, 
indeed, incremental improvements. We are, obviously, always on 
the lookout for that ``great leap ahead.'' I think in some 
cases that's probably unrealistic.
    I think that the quality of our program is measured in a 
number of different ways. We have outside review panels that 
help us to review our science and technology objectives. We 
look every year at the strategy of how we invest our funds. We 
develop an internal strategy guidance that helps us to shape 
our budget for the upcoming year, and we have to make hard 
choices in making decisions on how much money will be spent on 
procurement--that is, buying equipment for the forces in the 
field today--versus our investment in research and development, 
the long-term program.
    I think all of you are probably aware that the threat is 
changing. There are new and emerging threats that demand that 
we invest some of our science and technology there, and we have 
to balance that with the amount of money that we have, how much 
we can spend on procurement, and how much is available for 
long-term investment.
    I am very proud to be a part of the Chemical and Biological 
Defense Program. I think it is one of the shining stars in the 
Department of Defense. I think there has been a tremendous 
amount of increased interest in our program over the past few 
years, and I clearly think that the addition of a 
representative from the Joint Staff onto our OSD Steering 
Committee has provided that connection that we need with the 
warfighters. This year for the first time we had a video 
teleconference with representatives from the CINCs so that we 
could go over with them exactly what their requirements were 
and how our Chemical and Biological Defense Program is working 
to meet their requirements.
    I would be happy to answer any questions you might have.
    [The prepared statement of Ms. Johnson-Winegar follows:]

    [GRAPHIC] [TIFF OMITTED] T1624.017
    
    [GRAPHIC] [TIFF OMITTED] T1624.018
    
    [GRAPHIC] [TIFF OMITTED] T1624.019
    
    [GRAPHIC] [TIFF OMITTED] T1624.020
    
    [GRAPHIC] [TIFF OMITTED] T1624.021
    
    [GRAPHIC] [TIFF OMITTED] T1624.022
    
    [GRAPHIC] [TIFF OMITTED] T1624.023
    
    [GRAPHIC] [TIFF OMITTED] T1624.024
    
    Mr. Shays. Do you have this document in front of you?
    Ms. Johnson-Winegar. Yes, I believe I do.
    Mr. Shays. Thank you.
    I am looking at page 8.
    Ms. Johnson-Winegar. Yes.
    Mr. Shays. Maybe you could just kind of talk to me about 
that.
    Ms. Johnson-Winegar. OK.
    Mr. Shays. And discuss all the entities. I mean, I see 
DARPA there. We got it from you; I'm just curious how it fits 
in.
    Ms. Johnson-Winegar. Certainly. I'd be happy to explain 
that to you.
    The OSD Steering Committee, as shown in the blue box on the 
left, is comprised of five members. That's chaired by Hans 
Mark, the Director of Defense Research and Engineering. The 
other members are Jay Davis, the Director of DTRA; Dr. Gary 
Resnick, who is Director of the Chemical/Biological Directorate 
at DTRA; myself; and Admiral Costello, representing the Joint 
Staff. And I think, as I mentioned before, that that's been a 
very important addition.
    We have a representative from OSD Policy, Strategy and 
Threat Reduction as a non-voting member, and this is the group 
that annually puts out the guidance for the Chemical and 
Biological Defense Program as we develop our budgets and our 
programs for the upcoming years.
    What this chart is meant to show, with the DARPA 
interaction--and you'll see that on the right-hand side of the 
chart--is that the DARPA organization also reports to Hans 
Mark. They develop their budget entirely separately, and DARPA 
has been investing in the area of bio defense for the past few 
years, and has had a rapid growth in their program, also.
    You will see that the area where the programs meet and 
``marry up'' is in sort of a pale oval in the center, where 
representatives from DARPA meet with service representatives, 
representatives from DTRA, and talk about their investment in 
the science and technology part of the program.
    We have taken an additional step in that we have identified 
specific transition funding. As I know you are aware, DARPA 
invests in basic research and a little bit of applied research, 
but does not have the mandate nor the wherewithal to carry 
programs through. We have set aside special funding so that 
when DARPA is finished with their investment, we can continue 
the advanced development and further evaluation. For example, 
in the area of medical products, DARPA does not have the 
resources or the personnel to take things from basic research 
into the required kinds of pre-clinical animal studies, and 
ultimately into clinical trials. And that's where our programs 
are going to marry up.
    Mr. Shays. I have a philosophy in my office, that when I 
say ``Who's handling this, who's in charge,'' and three hands 
go up, I know no one is in charge. So I always, always make 
sure one person is in charge.
    Now, my sense of your responsibility is that you are 
basically in charge of the Chemical and Biological Defense 
Program; I mean, that's your responsibility.
    Ms. Johnson-Winegar. Yes.
    Mr. Shays. So for you to tell me that somehow DARPA is not 
really involved is not clear to me. I don't understand your 
opening statement; in fact, I wasn't even ready to go in that 
direction, but you seemed to really want to make that point.
    Ms. Johnson-Winegar. Yes.
    Mr. Shays. You put it on the table.
    Ms. Johnson-Winegar. Yes, I did, and I did that 
deliberately.
    The point that I want to make is that DARPA develops their 
own budget----
    Mr. Shays. I'd like you to restate what you stated in the 
beginning. Maybe I misunderstood you. What was your point when 
you started?
    Ms. Johnson-Winegar. That the Chemical and Biological 
Defense Program, as defined by Public Law 103-160, and as 
reported in our annual report, does not cover the investment 
made by DARPA. That is not to say that we don't coordinate our 
programs with DARPA----
    Mr. Shays. Well, aren't there a lot of things that are done 
that don't come directly under you, that are related to 
chemical and biological?
    Ms. Johnson-Winegar. That's correct, but----
    Mr. Shays. Isn't your job to coordinate it?
    Ms. Johnson-Winegar. To the best of my ability, if I do 
that, yes.
    Mr. Shays. I don't know what you mean by ``to the best of 
your abilities.''
    Ms. Johnson-Winegar. I think the differentiation that I'm 
trying to make is on the money, because it is a significant 
investment from DARPA. And these other programs, TSWG program 
and some of the other ones, are relatively small and pale in 
comparison to the DARPA investment.
    Mr. Shays. So what you're telling me is that you're going 
to focus on the small stuff, and the big stuff is out of your 
reach?
    Ms. Johnson-Winegar. No, sir, that's not what I'm saying at 
all.
    I do have responsibility for coordinating the Department's 
Chemical and Biological Defense Programs.
    Mr. Shays. That's clear to me.
    Ms. Johnson-Winegar. That's clear, yes.
    Mr. Shays. OK. And so that does not include DARPA, as a 
coordinating effort?
    Ms. Johnson-Winegar. It does include DARPA as a 
coordinating effort. It does not mean that I provide any direct 
management of the DARPA programs. So perhaps I'm making a----
    Mr. Shays. But that's true for all the other things you 
coordinate, isn't it? There are other parts within DOD that you 
don't have their budget, and it's not part of your $791 
million, but your job is to bring all these disparate groups 
together so that we have a coordinated effort?
    Ms. Johnson-Winegar. Yes.
    Mr. Shays. OK. So, I'm sorry, I don't get your point.
    Ms. Johnson-Winegar. Well, the point, as was made by the 
GAO, is that there are three organizations that are primarily 
conducting the work of the Chemical and Biological Defense 
Program----
    Mr. Shays. Right.
    Ms. Johnson-Winegar [continuing]. And they identified 
SBCCOM, DARPA, and the JPO for Biological Defense, and made a 
very distinct point of saying that DARPA was excluded from 
having GPRA apply to them, and had been granted an exception by 
the Defense Executive Management Council.
    Mr. Shays. Right. I heard them say that.
    Ms. Johnson-Winegar. And that's the point I was trying to 
make. While DARPA may have been excluded from GPRA, I do not 
feel that the rest of the Chemical and Biological Defense 
Program falls under that same analysis, and we certainly do 
intend to comply. I just want to make it perfectly clear that 
if DARPA has already been excluded, I don't know if I can then 
enforce a GPRA evaluation on top of them.
    Mr. Shays. OK. That's a different--if that were true--I 
don't know if I would agree with that, but let me let my 
colleagues--let me think about what you said so that I don't 
come to a rash judgment here, and then we'll go on.
    Mr. Blagojevich.
    Mr. Blagojevich. No questions, Mr. Chairman.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Nothing, Mr. Chairman.
    Mr. Shays. What I really want to have is a sense of what 
you think the GAO report was saying, and how you respond to 
what GAO was saying. And I don't mean to rush you, but I don't 
want to dig other holes; I'd just like to know in general what 
your view is.
    I'll tell you my view, to start with. My view is that you 
have a very important task, that chemical and biological 
threats are serious, and that DOD has not done it in an 
effective and coordinated way, and that we end up wasting 
extraordinary resources and we don't get the job done in the 
way that it needs to get done. And I think, as a result, our 
men and women in the armed forces are vulnerable.
    I will tell you that I come with some anger about this 
aspect, and that is that I have been aware of the vulnerability 
of our military and could share it with no one because it was 
classified at the time. And I took some comfort in knowing that 
your office had been established to start to begin to do a 
better job.
    It may be that we have a hearing on DARPA and we get a 
better sense of that element, the sense that somehow they 
didn't come under the Results Act, because if anyone needs it, 
they need it. And I will say further that I don't think any of 
what we're talking about is all that technical; it's just 
basic, common-sense kind of approach to know what we want to do 
and how we're going to do it. We want to know why we want to do 
it.
    So I'd like to ask you how you react to what the GAO report 
has said, and I will say to you as well that I think they were 
rather gentle. I don't think that they tore your agency apart; 
they may have been tempted to, but I think they were rather 
gentle in their assessment, rather matter-of-fact. They were 
just saying that ``you're not doing it, and I'd like to help 
you do it,'' and I want to know what you want to do.
    Ms. Johnson-Winegar. Well, first of all let me say that I 
absolutely agree with you. I, too, am concerned about the 
vulnerability of our forces. As I said in my opening comments, 
I've been involved in the Chemical and Biological Defense 
Program for essentially my entire career, and have made an 
effort to do what I can and to make what contributions I can to 
getting us past that hurdle of our forces being vulnerable.
    So I do take very seriously the mission and the mandate of 
our program.
    I appreciate the comments that you've provided and having 
had the opportunity to review the GAO report, I certainly think 
there will be some additional value added to our program if we 
can apply metrics so that we can come up with quantitative 
measures of how we're doing.
    I think we do have some good examples. I know you don't 
want to go into a lot of detail today about these types of 
things, but we can look at improvements in the program in a 
number of different ways, and you have those briefing charts in 
front of you that we have provided before that show where we 
were in 1990, at the time of the Gulf war, where we are today, 
and where we plan to go in the future.
    While some of those things at the present may be 
subjective--for example, we need detectors that can identify 
more agents, or we need to be able to detect things at a lower 
level of sensitivity, or we need to be able to do it faster--
these are all driven by the requirements, as was mentioned 
before. The requirements address the threat; as the threat 
changes, we need to be able to respond to that; and as the 
requirements documents are written, we need to develop a 
material solution to fix that requirement. It may not always be 
the perfect requirement, and sometimes that is an iterative 
process, and sometimes we field interim pieces of equipment. 
When the BIDS was first deployed, it could detect four 
biological agents. Then it was eight, and the goals continue to 
increase.
    So if those are some of the types of measures and metrics 
on how well our program is performing and how valuable our 
investment is going to be, I certainly welcome and look forward 
to those types of evaluations and assessments.
    Mr. Shays. Who is in charge of CBDP? Is it Dr. Gansler, the 
Under Secretary of Defense for Acquisition, Technology and 
Logistics? Dr. Mark, the Director of Defense Research and 
Engineering? The Steering Committee? Or you?
    Ms. Johnson-Winegar. On a day-to-day basis, my office is 
the office that is responsible for the Chemical and Biological 
Defense Program. I do, of course, have bosses in the Pentagon, 
and report up the chain to both Dr. Mark and Dr. Gansler, and 
ultimately to the Secretary and Deputy Secretary.
    Mr. Shays. What authority do you have as the focal point of 
the program?
    Ms. Johnson-Winegar. My authority is to provide the 
oversight and management to the elements of the program that 
are executing the various phases of the program, and to serve 
as the senior staff to the Secretary and to Dr. Gansler for all 
issues related to Chemical and Biological Defense Programs.
    Mr. Shays. OK. Agents, you said?
    Ms. Johnson-Winegar. Agencies.
    Mr. Shays. All agencies. Is DARPA one of them?
    Ms. Johnson-Winegar. Yes, it is.
    Mr. Shays. OK. And do they know that?
    Ms. Johnson-Winegar. I believe they do.
    Mr. Shays. What additional authority do you need?
    Ms. Johnson-Winegar. I'm not sure I understand exactly what 
you mean.
    Mr. Shays. In other words, in my work I find that some 
people are responsive and some aren't. When, for instance, we 
were looking at--my previous committee was looking at the Gulf 
war illnesses, I found the Department of Veterans Affairs very 
responsive, because I had direct oversight over them. I found 
DOD not as responsive, and it is the very reason why I changed 
committee assignments. So I now chair this committee, and have 
DOD responsive to me.
    Do you have any feeling that when you do your work, you 
aren't getting a quick response from the various agencies 
within DOD? Or do you feel you are getting all the response you 
need? Is there anyone out of the loop?
    Ms. Johnson-Winegar. I would certainly say that in the 
approximately 6 months or so that I have been in the job, I 
certainly see a tremendous improvement in responsiveness and 
cooperation among the various agencies. I am not attributing 
that to me personally, but I think it is to the general----
    Mr. Shays. Which agency is the least responsive?
    Ms. Johnson-Winegar. Well, it varies on a given issue, what 
the particular problem might be.
    Mr. Shays. Would you describe your coordinating effort as 
``herding cattle'' or ``herding cats?''
    Ms. Johnson-Winegar. Probably somewhere in between.
    Mr. Shays. OK. Well, we'd like it to be cattle.
    Would you like to get to the chart?
    Mr. Halloran. Before I get to the chart, what does the JPO, 
the Joint Program Office, do that SBCCOM doesn't?
    Ms. Johnson-Winegar. The Joint Program Office has 
responsibility for the 6-4, 6-5, advanced development, and the 
procurement aspects. They work very closely with SBCCOM; as a 
matter of fact, some of the particular program managers for 
specific items reside at SBCCOM and are essentially matrix-
managed to the Joint Program Manager.
    Mr. Halloran. So does that suggest some redundancy? Must 
they be unique?
    Ms. Johnson-Winegar. The JPO?
    Mr. Halloran. Yes.
    Ms. Johnson-Winegar. They were specifically created, as you 
know, to bring focus and attention to bio defense only. They 
don't do any work on the chemical side. But bio defense, again, 
in the areas of advanced development and procurement, so that 
they could bring about a synergism between the medical and the 
nonmedical aspects of bio defense, and provide a focal point, 
again, for the attention needed to bring many of these bio 
systems to full fielding.
    Mr. Halloran. I understand what the chart says, but is 
there a unique bio threat? My understanding was that the 
battlefield threat was both, or a combination, that we need to 
prepare for both. Well, the JPO may have been a nice idea; is 
it still relevant?
    Ms. Johnson-Winegar. Well, it's certainly my assessment, 
and I'm not an intelligence analyst or threat assessor by 
trade, but it's certainly my assessment that the bio threat is 
a much larger threat for us today than it has been in the past, 
for a number of reasons: the diversity of the number of agents 
there; the relative ease in producing them; and the fact that I 
think we have better defenses against the chemical threat, 
certainly the traditional chemical threat, than we do for the 
bio threat.
    Mr. Halloran. Turning to page 14 of your briefing slide 
presentation, you see the defense deficiencies identified in 
Operation Desert Storm. I would like to address an issue raised 
by Dr. Harris, which is that you identify goals, near-term and 
long-term goals, in each commodity area, each of these areas.
    I wonder if you could give us a sense of, given those 
goals, the tradeoffs that are involved here, or the impacts 
that one might have on the other. That is, for example, if you 
made a breakthrough in standoff detection and you had the 
capability to identify specifically agents at some specific and 
tactically significant distance, would that change your goals 
in terms of protection or medical intervention or some other 
element down the line? Or would they all just proceed apace 
without impacting each other?
    Ms. Johnson-Winegar. Well, clearly they are interrelated, 
and as we make improvements and advances in one area, that will 
allow us, hopefully, to decrease our investment or focus our 
energies elsewhere. If we had the one universal solution to the 
problem, we could collapse our various investment areas.
    These are not just arbitrary commodity areas or 
investments. They are things that are well thought-out. And I 
think you can find examples of interaction between the groups 
as we go forward now. So you are absolutely right; if we 
improve our capability for standoff detection, then that makes 
an impact on what we would need for some of the other aspects 
of the program. That's why it is an iterative process and 
evaluated on an annual basis, both from the science and 
technology side of things, where we are investing in what new 
programs and products are coming along that will be ready for 
transition, and we balance that with what we have in the field 
today.
    Mr. Halloran. Again, in the absence of any specific goals, 
how would you know when to make a tradeoff? How would you know 
you had achieved sufficient capacity--in detection, for 
example--to allow you to back off a requirement in either 
individual or collective protection?
    Ms. Johnson-Winegar. Well, again, those are program 
management decisions that are impacted by all the traditional 
factors that program managers use, cost schedule and 
performance. And as we see one particular approach either being 
very successful or not being very successful, we can make 
adjustments to our investment accordingly.
    Mr. Halloran. I notice in your report you describe DARPA as 
focused particularly on broad-range or multiagent defense 
capabilities. Where do I find that focus in here? As you know, 
coming out of the Anthrax vaccine, there is an agent-specific 
intervention.
    Ms. Johnson-Winegar. Yes.
    Mr. Halloran. Is that a priority goal in here someplace, in 
your program----
    Ms. Johnson-Winegar. Yes.
    Mr. Halloran [continuing]. General protection versus 
specific?
    Ms. Johnson-Winegar. Yes. You will see a couple of Defense 
technology objectives that look at a multivalent vaccine, for 
one, and also in the area of detectors, they are what I would 
call not agent-specific, but more generic, and we are investing 
in technologies that will help us identify classes of agents 
rather than specific agents.
    So you will find that primarily in the R&D section of the 
program. We don't have anything fielded right now that I would 
call a generic detector or a generic solution, other than that 
you could apply that type of logic to things like the masks and 
the suits which protect, presumably, against all the known 
threats.
    Mr. Halloran. That we know now?
    Ms. Johnson-Winegar. Right.
    Mr. Halloran. Where in the organizational charts provided 
here--you mentioned technology objectives. Where are they 
developed, and what is your role in that?
    Ms. Johnson-Winegar. The Defense technology objectives are 
developed by the performers, the people that are doing the 
science and technology work in the laboratories. They propose 
them on an annual basis.
    Mr. Halloran. Who are they?
    Ms. Johnson-Winegar. Who are the laboratories?
    Mr. Halloran. Yes.
    Ms. Johnson-Winegar. Well, for example, SBCCOM is one. The 
Navy, the Marines, the Army Medical Command. Any of them can 
propose a certain segment of their work to have it identified 
as a Defense technology objective, and with that comes a 
certain set of criteria. And they do have measurable goals. And 
I think that's one area in which our program is attempting to 
comply with GPRA, in that when we identify something as a 
Defense technology objective, we have a timeline--this work 
will be completed by a certain time; we have identified the 
budget--this is how much money we are going to invest in that; 
and we have what are called ``exit criteria.'' At the end of 
this particular piece of work we will have enough science and 
technology to be able to say that it will do thus-and-such, it 
will identify things, it will neutralize things, it will stop 
things, whatever the specific criteria might be.
    Mr. Halloran. Who makes that determination? Is it TSWG, or 
where is that?
    Ms. Johnson-Winegar. On the DTOs?
    Mr. Halloran. Yes.
    Ms. Johnson-Winegar. That's done across the Department of 
Defense, and chem-bio is just 1 of 12 science and technology 
areas. Those are cumulatively found in a separate document 
called ``Defense Technology Objectives'' of which there are 
over 300 now. We have approximately 20 or so in the chem-bio 
defense area. And there is a separate document that addresses 
all those; I would be happy to provide you either a copy of 
that, or information where it is available on the Web.
    Mr. Halloran. OK. I'd like to see just your 20.
    Ms. Johnson-Winegar. OK.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1624.025
    
    [GRAPHIC] [TIFF OMITTED] T1624.026
    
    [GRAPHIC] [TIFF OMITTED] T1624.027
    
    [GRAPHIC] [TIFF OMITTED] T1624.028
    
    [GRAPHIC] [TIFF OMITTED] T1624.029
    
    [GRAPHIC] [TIFF OMITTED] T1624.030
    
    [GRAPHIC] [TIFF OMITTED] T1624.031
    
    [GRAPHIC] [TIFF OMITTED] T1624.032
    
    [GRAPHIC] [TIFF OMITTED] T1624.033
    
    [GRAPHIC] [TIFF OMITTED] T1624.034
    
    [GRAPHIC] [TIFF OMITTED] T1624.035
    
    [GRAPHIC] [TIFF OMITTED] T1624.036
    
    [GRAPHIC] [TIFF OMITTED] T1624.037
    
    [GRAPHIC] [TIFF OMITTED] T1624.038
    
    [GRAPHIC] [TIFF OMITTED] T1624.039
    
    [GRAPHIC] [TIFF OMITTED] T1624.040
    
    [GRAPHIC] [TIFF OMITTED] T1624.041
    
    [GRAPHIC] [TIFF OMITTED] T1624.042
    
    [GRAPHIC] [TIFF OMITTED] T1624.043
    
    Mr. Halloran. Thank you.
    Mr. Shays. Mr. Blagojevich.
    Mr. Blagojevich. Yes. Hi. I have been listening. We voted 
for legislation that requires your agency to conform to the 
Results Act. Can you tell us when you expect you will be 
conforming with the Results Act?
    Ms. Johnson-Winegar. Well, I think it is an evolving 
process. Obviously, it will be something that we come to 
agreement on within the Department as to when we have reached 
what we consider compliance. I think we have taken the first 
steps toward that in identifying our mission and our goals, and 
we are now in the process of refining that a little bit 
further. We hope to have most of that work completed this year.
    Mr. Blagojevich. Good. So that next year, when you come 
back before this committee, it is reasonable to think that we 
can expect that you will be conforming to the Results Act?
    Ms. Johnson-Winegar. Well, certainly that will be your 
interpretation, as to whether we're conforming, but we 
certainly hope to be well along the way, if not completely 
there.
    Mr. Blagojevich. OK. All right. So of course, the objective 
ultimately would be that a year from now, you can come back 
before this subcommittee and say, ``We've conformed?''
    Ms. Johnson-Winegar. I would certainly like to be able to 
say that, in my opinion, we're conforming. Of course, other 
people could always develop their own opinions, although I 
would hesitate to presuppose that because I think I'm 
conforming, that everyone else would naturally agree with me.
    Mr. Blagojevich. OK. Well, your interpretation of 
conforming next year would certainly be a first step, I would 
think?
    Ms. Johnson-Winegar. Yes. Certainly. [Laughter.]
    Mr. Blagojevich. OK. Thank you.
    Mr. Shays. Let me put it a different way.
    Ms. Johnson-Winegar. OK.
    Mr. Shays. It may be that Rod is the chairman of this 
committee, or it may be that I am, but whoever it is, you have 
to comply----
    Ms. Johnson-Winegar. Yes.
    Mr. Shays [continuing]. And when I chaired the Human 
Resources Committee and we had the tainted blood supply that 
had resulted in the death of individuals from AIDS and the 
contamination because of Hepatitis-C, we could have really 
nailed HHS, but that wasn't our motive. Our motive was to see 
bad practice become good practice.
    I have that same feeling here. You have to conform, and 
it's not just for the $791 million that you're spending, but 
it's what DARPA spends, it's what all DOD spends. And you are 
our hope that it will be spent well. And it's not going to be 
your opinion; it's going to be whether or not you conform to 
the law.
    I would feel a lot better about this if your answer to Mr. 
Blagojevich had been simply, ``We know we have areas where we 
have to improve, and we're going to do it; and next year, when 
we come here, we will have done it.'' The Results Act doesn't 
mean that all the results are good; it means that now we have a 
system to know what our goals and objectives are, and we have a 
way to evaluate it. And we don't feel we have that.
    There is really not much more that we need to say today 
about that. You have a wonderful reputation. You've worked 
there for years. But we have wanted to get DOD to change 
practices that have existed for years. It's not really a 
debatable issue, I don't think. And in terms of DARPA, this 
will be something this committee will look at. You clearly have 
oversight over DARPA as it relates to chemical and biological 
responsibilities, and this committee, Mr. Blagojevich and 
myself and our staff, we stand ready to help you, and so does 
GAO. GAO is not there throwing darts; they are there to point 
out what needs to be done, and they will help you. And I would 
say to you that being the focal point does not mean that you 
aren't in charge. You are in charge of this responsibility, and 
I have the confidence that you will be able to make sure that 
it is done, I really do.
    I don't have anything else to add. Do you have anything you 
would like to say?
    Ms. Johnson-Winegar. Well, I would just like to clarify--
perhaps I was a little too negative when I said we would be in 
compliance, and I perhaps implied that we wouldn't. I certainly 
commit to you and to everyone that is involved in the program 
that I am certainly committed to making our program as 
compliant as I can, with the understanding, of course, that it 
is an evolving process----
    Mr. Shays. No, that's not acceptable. It's not an evolving 
process. I'm not saying that we're going to see chemical and 
biological success in all those areas, that you are going to 
have met all your goals. But the process needs to be in place 
now, tomorrow, the next day. You need to sit down with your 
people and say, ``Where are we conforming with the Results Act 
and where aren't we? And where we're not, we're going to do 
it.'' And if you need help from GAO or anyone else, you need to 
get it. That's the bottom line. There really is a bottom line. 
It can't be an evolving process.
    If I let you get away with that statement, that basically 
is like saying that no one is in charge. No, you are in charge; 
the law is clear; and I would like to hear you say that you 
will make sure it's done. With all the experience that you 
have--and I sound like I'm lecturing; I don't mean to be, I 
just have to say, please say that. When we had the Secretary of 
HHS here and she came--she could have had someone else come to 
describe and defend the failure to protect the blood supply--
she came and said, ``We haven't done it correctly, that's 
obvious; it will get done.'' Now, I admit that she happens to 
be the Secretary, so she carries a lot more authority.
    I will say this to you: you are in charge of this program. 
If you do not think you can do it, I would like to know, 
because then we will ask whoever is not enabling you to do that 
to come before the committee.
    Ms. Johnson-Winegar. Oh, I certainly can do it, and I 
commit to you that I will do it----
    Mr. Shays. Thank you.
    Ms. Johnson-Winegar [continuing]. And I guess my evaluation 
of the evolution and the evolving process was meant to say that 
we will set very high goals for our program, and we may have to 
compromise and accept interim goals, but we will have 
measurable goals so that we are in compliance.
    I take your comment that maybe we won't make all our goals 
as a personal challenge because I would certainly like to see 
us----
    Mr. Shays. I understand that, if that's the context in 
which you meant it. But the bottom line question is, does your 
agency intend to follow the Results Act?
    Ms. Johnson-Winegar. Certainly. For the Chemical and 
Biological Defense Program, I make that commitment to you, yes.
    Mr. Shays. Thank you.
    With that, we will stand adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]


</pre></body></html>
